The Department of Justice (DOJ) Office of the Inspector General (OIG) today
released a report examining the Bureau of Prisons’ (BOP) efforts to improve
acquisition through strategic sourcing. The OIG audit reviewed the procurement
practices in the BOP from October 2010 through March 2013, during which time the
BOP awarded almost $9 billion in contracts. We found that while the BOP had
established national contracts and blanket purchase agreements to help reduce
costs and achieve the goals of strategic sourcing, it had not established a program
to implement and oversee the General Services Administration’s (GSA) Federal
Strategic Sourcing Initiative or other federal strategic sourcing initiatives. We also
found that purchasing operations are largely de-centralized, with institutions
making procurement decisions locally, and that the procurement personnel at BOP
institutions were uncertain about whether the use of the national contracts and
blanket purchase agreements was mandatory or optional.

In that regard, the report released today found that, while the BOP has established
national contracts and blanket purchase agreements, participated in other GSA and
Department of Justice cost-savings initiatives, and encouraged the institutions to
use the national contracts and blanket purchase agreements, it typically did not
make the use of these cost-savings efforts mandatory. We also found the BOP
does not track participation in the national contracts and other cost-savings
initiatives, and does not require documentation of cost savings achieved through
participation in such programs. As a result, the BOP is not fully leveraging its
buying power to reduce procurement costs.

The OIG made three recommendations to improve the BOP’s procurement
practices, including implementing a strategic sourcing program; identifying and
communicating to BOP procurement staff when they must use existing contracts
and cost-savings initiatives; and including in its internal program review process
steps to verify whether BOP procurement offices are using strategic sourcing in the
acquisition of goods and services. The BOP agreed with all three recommendations.

The report can be found on the OIG’s website
at: http://www.justice.gov/oig/reports/2014/a1417.pdf.
